FDIC Office of Inspector General Press Release: Federal Grand Jury Indicts Two Odessans In Bank Fraud Scheme
United States Department of Justice
United States Attorney's Office
Western District of Texas
FOR IMMEDIATE RELEASE
September 4, 2014
Federal Grand Jury Indicts Two Odessans In Bank Fraud Scheme
The owner and office manager of Shorts Electric, an Odessa company the provided oilfield and residential electric services, are in federal custody charged in connection with an estimated $400,000 bank fraud scheme announced United States Attorney Robert Pitman, Special Agent in Charge Laurie L. Younger, FDIC Office of Inspector General, Dallas Region, and FBI Special Agent in Charge Douglas E. Lindquist, El Paso Division.
A federal grand jury indictment unsealed yesterday charges 44-year-old Shorts Electric owner Lanny Wayne McDorman and 46âyear-old Justine Jane Woods with one count of bank fraud. The indictment alleges that from June 2012 until March 2014, the defendants knowingly defrauded Commercial State Bank (CSB).  According to the indictment, Shorts Electric had a Business Manager Reserve Account (BMRA) in which CSB would purchase, at a discount, Shorts Electric accounts receivable and transfer the purchase money into the BMRA, thereby allowing Shorts Electric immediate access to operating funds without having to wait for customers invoices to be paid.  Full payment on the purchased Shorts Electric invoices would then be obligated to CSB. The indictment alleges that the defendants created and submitted to CSB numerous fraudulent invoices knowing that those invoices would be uncollectable because they did not represent actual money owed to Shorts Electric.
McDorman and Woods face up to 30 years in federal prison and a maximum $1 million fine upon conviction.
"Working alongside our law enforcement partners, we will continue to focus on finding, stopping, and punishing those who commit fraud schemes that impact our financial institutions," stated FDIC-OIG Special Agent in Charge Laurie L. Younger.
"Bank fraud has the potential to cause immeasurable damage to our community and the FBI will continue to rigorously investigate these allegations with our law enforcement partners.  The arrests of these individuals will send notice that the FBI will continue to protect the community from schemes to defraud financial institutions insured by the FDIC," stated FBI Special Agent in Charge Douglas E. Lindquist.
The defendants, who were arrested by FDIC-OIG and FBI agents yesterday, remain in federal custody awaiting an arraignment and detention hearing scheduled for 3:00pm on September 9, 2014, before United States Magistrate Judge David Counts in Midland.
Assistant United States Attorney John Klassen is prosecuting this case on behalf of the Government.
An indictment is merely a charge and should not be considered as evidence of guilt.  The defendants are presumed innocent until proven guilty in a court of law.
####